APPENDIX 3
Case: 19-5371 Document; 43-1 Filed: 05/15/2020 Page: 1 (4 of 2)

No. 19-5371

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

ve

ORDER

JIMMY McLAIN MOORE,

Defendant-Appellant.

BEFORE: MOORE, KETHLEDGE, and BUSH, Circuit Judges

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.

Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah §S. Hunt, Clerk
